<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: BECOMING AMERICANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
 COMPREHENSIVE IMMIGRATION REFORM: BECOMING AMERICANS--U.S. IMMIGRANT 
                        INTEGRATION (CONTINUED)
=======================================================================


                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 23, 2007

                               __________

                           Serial No. 110-39

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

35-604 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel

                            C O N T E N T S

                              ----------                              

                              MAY 23, 2007

                                                                   Page

                            OPENING REMARKS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1

                           OPENING STATEMENT

The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     1

                               WITNESSES

Mr. Stanley Renshon, Professor, City University of New York 
  Graduate Center
  Oral Testimony.................................................     3
  Prepared Statement.............................................     6
Mr. Roger Clegg, Center for Equal Opportunity
  Oral Testimony.................................................    39
  Prepared Statement.............................................    42
Mr. Tim Schultz, Director, Government Relations, U.S. English
  Oral Testimony.................................................    63
  Prepared Statement.............................................    64
Mr. Mark Seavey, Director of the National Legislative Commission, 
  The American Legion
  Oral Testimony.................................................    66
  Prepared Statement.............................................    68

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    85
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    86


 COMPREHENSIVE IMMIGRATION REFORM: BECOMING AMERICANS--U.S. IMMIGRANT 
                        INTEGRATION (CONTINUED)

                              ----------                              


                        WEDNESDAY, MAY 23, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 5:45 p.m., in 
Room 2226, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Jackson Lee, King, 
Goodlatte, and Gohmert.
    Staff Present: Ur Mendoza Jaddou, Chief Counsel; Andrea 
Loving, Minority Counsel; George Fishman, Minority Chief 
Counsel; and Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order. This is a continuation of 
our hearing from last Wednesday scheduled at the request of our 
minority Members pursuant to clause 2(J)(1) of House Rule XI so 
as to provide additional perspectives on the topic of that 
hearing. Our witnesses today have been chosen by the minority, 
and we look forward to hearing their testimony.
    The Chair now recognizes the Ranking Member, Steve King, 
for his opening statement.
    Mr. King. Thank you, Madam Chair. Thank you for holding 
this hearing today, and I thank the witnesses for being here to 
testify. The title of this hearing is integration; to me, that 
means assimilation. I found in one of our previous hearings 
there were witnesses on the other side that weren't quite 
pleased with that expression, assimilation.
    I would reflect back when I was first elected to Congress, 
I held a meeting in my office with a group of minority leaders 
in my largest city, there were 14 of them, and as I listened to 
each, and I brought them in because I wanted to open the 
dialogue, all around that table of 14 it was a continual demand 
upon the taxpayers for benefits, and finally I asked what are 
you going to do. Well, we pay taxes, and you have to listen to 
us. Well, everyone who consumes in America pays taxes of some 
kind.
    And so then I said I am going to ask you to respond 
instantaneously to one word I am going to use, everyone get up 
on the front of the chair and be ready when I say the word, 
because I don't have time to listen to all 14 of you give me 
your opinion. They all got ready, and I said, ``Assimilation.'' 
They sat back, put their hands up, gave every expression of 
rejection you can imagine, all 14, and they said that means we 
have to give up our culture, you are trying to take away our 
culture, force us to accept your culture. And I said what you 
have done by your body language and by your spontaneous 
responses, you have rejected American culture by that response 
to the word ``assimilation.''
    Assimilation is the foundation of American culture, and the 
other cultures in the world, the other nations in the world 
would dream to have the kind of success that we have had here. 
I look across at the Israelis who, in 1954, adopted Hebrew as 
their official language. And I asked them why did you do that, 
they said we saw the model of successful assimilation in the 
United States. We wanted a language that identified us as a 
people so they resurrected a 2,000-year-old language so that 
they could identify themselves as Israelis. No matter where 
they come from in the world, they speak the same language, they 
make sure that they do, and they put them through the 
assimilation process when they arrive in Israel, whether it is 
Africa or Asia or wherever it is.
    So when I look through, I sat down myself and went through 
the World Book Encyclopedia because that was the only document 
that I could find that actually identified whether a country 
had an official language or not.
    I opened up the Almanac, went to every flag there, and then 
I went to the World Book Encyclopedia. There in that research 
it doesn't always concur with some of the other research, and 
every single country had at least one official language except 
the United States.
    I will say tying ourselves together with one language, one 
common form of communication, currency has been the strongest, 
most powerful bond known to humanity all throughout history, 
from Qin Shi Huang, the first emperor in China, who in 245 B.C. 
determined he was going to bind all the Chinese together by 
hiring scribes to draft the Chinese language and unify them for 
10,000 years. He is a fourth of the way along. We need to tie 
ourselves together, we need to have a successful immigration 
and assimilation program. If you call it integration, let's 
make sure we are really talking about the blending of all 
cultures together under one overall form, one form of common 
culture that binds us together, then we have some cultures 
underneath that we respect.
    So if we move down this path correctly, we can have a 
strong Nation and if we move this pathway by dividing 
ourselves, then we will collapse as a Nation. That would be the 
viewpoint that I bring to this, and I look forward to the 
testimony of the witnesses, and I thank you, Madam Chair, and I 
yield back the balance of my time should there be any.
    Ms. Lofgren. Thank you. We now turn our attention to the 
minority witnesses to provide their perspective. In the 
interest of proceeding to our witnesses I will place my opening 
statement into the record, and without objection, the Chair is 
authorized to declare a recess of the hearing.
    I would like to introduce Dr. Stanley Renshon, Professor 
and Coordinator of the Interdisciplinary Program in the 
Psychology of Social and Political Behavior at the City of New 
York Graduate Center. He received his doctorate from the 
University of Pennsylvania, completed a post-doctoral 
fellowship in Psychology and Politics at Yale University, and 
did additional graduate work and psychoanalytic training at the 
Training and Research Institute for Self-Psychology at Long 
Island University, and the International Society of Political 
Psychology elected him as its President during the 2003-2004 
academic year.
    I would also like to introduce Tim Schultz, Director of 
Government Relations and Staff Counsel for U.S. English. Mr. 
Schultz has worked for 4 years with U.S. English, focusing on 
legislation. He holds his bachelor's degree from Kansas State 
University and law degree from Georgetown.
    We would also like to welcome Mark Seavey, Director of the 
National Legislative Commission at the American Legion. He 
served in Afghanistan for over a year as an infantry squad 
leader in the 3rd Battalion, for which we are very grateful, 
and he is a graduate of the Citadel, the Military College of 
South Carolina.
    And finally, we would like to welcome Roger Clegg, 
President and General Counsel of the Center for Equal 
Opportunity. Prior to beginning his work at the Center 10 years 
ago, Mr. Clegg served as Vice President and General Counsel to 
the National Legal Center for the Public and as Deputy 
Assistant Attorney General at the Justice Department. He earned 
his bachelor's degree from Rice University and his law degree 
from Yale University.
    Each of your written statements will be made part of the 
record in its entirety. We ask that you summarize your 
testimony in 5 minutes. When you have 1 minute left, the yellow 
light will go on; and when the red light flashes, it means time 
is up. It always come faster than you think.
    I would ask that you try and live within those time limits. 
We are expecting a series of votes, and if we are prompt, we 
can actually keep you from sitting here for an hour while we 
vote.
    So let me begin, Mr. Renshon, with you.

TESTIMONY OF STANLEY RENSHON, PROFESSOR, CITY UNIVERSITY OF NEW 
                      YORK GRADUATE CENTER

    Mr. Renshon. Thank you very much. Is the mike on? Can you 
hear? Thank you.
    Ms. Lofgren. If you could move it a little bit closer.
    Mr. Renshon. Madam majority Chairman and minority Members 
and members of the group, thank you for having me here again 
today. I am honored to discuss something that is very important 
to America's long-term national security and civic well-being.
    Part of my work is on the psychology of immigration and 
American national identity and some of the results of that are 
published in a book called The Fifty Percent American. The 
focus of that book and the foundation of my remarks here today 
is that a core but neglected issue facing the American 
immigration policy is our ability to integrate tens of millions 
of new immigrants into the American national community. That 
ability turns largely on our success in helping immigrants form 
and develop emotional bonds with this country. Governments 
certainly can't mandate attachments, but they can facilitate or 
impede them.
    I understand national attachment to include warmth and 
affection for and appreciation of, a justifiable but not 
excessive pride in, and a commitment and a responsibility to 
the United States, its institutions and way of life and its 
citizens. The success of American democracy and its cultural 
and political institutions have always depended on these kinds 
of emotional attachments.
    Yet the degree of attachments, emotional attachments, that 
immigrants feel toward their new country is rarely discussed 
and almost never directly measured. Instead, we rely on 
surrogate measures like whether they say they speak English or 
whether they own property. Caution is in order for both of 
those because self-reports are, after all, only self-reports 
and owning a house is not the same thing as loving your 
country.
    There is in our country today an attachment gap. That gap 
is the result of centrifugal forces that have buffeted the 
emotional attachments of the American national community by 
immigrants and Americans alike over the past four decades. 
Domestically some multiculturalists have sought to substitute 
ethnic and racial attachments for national ones, while 
international cosmopolitans, in quotes, seek to transcend what 
they see as narrow and suspect nationalist connections to the 
American national community.
    It is having an effect. To give you one statistic out of 
many in my book, in 2002 the Pew Center asked a large sample of 
Hispanics what terms they used to describe themselves. They 
found about 88 percent identified themselves from their country 
of origin, that is either Mexican or Cuban or Latino or 
Hispanic. They were much less likely to use the term 
``American.'' Surprisingly, this was true even if they were 
American citizens. They were more likely to identify with their 
country of origin.
    This is no longer confined just to ethnic groups. I just 
read yesterday a recent Pew poll on Muslim Americans. An 
estimated 2.5 million Muslims, 47 percent of whom think of 
themselves as Muslims first and not Americans.
    Globalization and technology have allowed foreign 
governments to maintain and foster the attachments of their 
immigrant nationals to their, quote, unquote, home country. My 
favorite illustration of this is the temporary protected status 
granted to El Salvadorans in March 2001 because earthquakes had 
devastated their country. It was extended for 1 year and set to 
expire. At that point almost
    Seven hundred and fifty thousand Salvadorans living in this 
country got a recorded message from their President urging them 
to urge our Government to continue on with the temporary 
protected status.
    We are in the midst now of a long delayed and much needed 
national debate regarding immigration. In my view, any new 
immigration bill should be crafted with a sharp focus to this 
question, what should we ask of immigrants who want to become 
Americans? My answer to that is really straightforward. We 
should prefer those who come here to invest in this country as 
well as in their own ambitions. We should prefer those who 
invest more in learning our language, culture and politics than 
they do in retaining their attachments to the countries of 
their origin. We should prefer people who work hard to realize 
their own ambitions and opportunities but reinvest some of that 
gain back into the American community.
    That said, what practically can the government do to help 
this process along? First, and I would really urge this one, I 
guess I will say this and that will be that, we need to 
understand that becoming an American is a process that begins 
when people first contemplate coming here and ends only when 
they and their children feel more attached to this country 
rather than any other.
    I have some other comments about how we might do that.
    [The prepared statement of Mr. Renshon follows:]
                Prepared Statement of Stanley A. Renshon
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. All of which will be in the record.
    Mr. Renshon. I will defer.
    Ms. Lofgren. I wonder if we should try--well, we have got 
15 minutes to get there to vote and we have 35 minutes of votes 
and 15 minutes of testimony so there is really--unless you want 
to abbreviate the testimony. I would defer to the judgment of 
the Ranking Member. We will have to return.
    Mr. King. From my view, as much time as they have invested, 
I would like to hear their testimony.
    Ms. Lofgren. Alright. We shall return at the end of our 
voting. This hearing is recessed. Please return promptly after 
the votes so that we can conclude.
    [Recess.]
    Ms. Lofgren. The hearing will come back to order and as Mr. 
Schultz is not here at the moment, we will move to--Mr. Seavey 
is not here. We will go to Mr. Clegg in the hopes that the 
other witnesses will be here in time to testify. You are 
recognized for 5 minutes.

                   TESTIMONY OF ROGER CLEGG, 
                  CENTER FOR EQUAL OPPORTUNITY

    Mr. Clegg. Thank you very much, Madam Chairwoman, for 
inviting me to testify today. I am especially glad that you are 
holding hearings at this time on the issue of assimilation. The 
current debate over immigration has not given assimilation the 
attention that it deserves.
    Americans need not all eat the same food, listen to the 
same music, or dance the same dances, but assimilation does 
mean that we must all aim to have certain things in common. 
America has always been a multiracial and multiethnic society, 
but it is not and should not be multicultural. You can come to 
America from any country and become an American, but that means 
accepting some degree of assimilation. It is not diversity that 
we celebrate most but what we hold in common: E pluribus unum.
    Accordingly, it makes sense to set out some rules essential 
for a multiracial, multiethnic America, rules that all 
Americans should follow wherever they or their ancestors came 
from.
    In fact, these 10 rules apply to all of us, native and 
immigrant alike. Let me just run through them quickly.
    One, don't disparage anyone else's race or national origin. 
If we are to be one Nation, we cannot criticize one another's 
skin color and ancestors.
    Two, respect women. Just as we do not tolerate a lack of 
respect based on race or ancestry, we also demand respect 
regardless of sex. Some cultures, foreign and domestic, put 
down women. That is not acceptable. If you come from a country 
or a culture where women are second-class citizens, you must 
leave that behind.
    Three, learn to speak English. This doesn't mean that you 
can't learn other languages, too, or keep up a native language, 
but you and your children must learn English, standard English, 
as quickly as you can, and if you expect to be accepted, you 
should avoid speaking another language when you are with people 
who don't understand it. We have to be able to communicate with 
one another.
    Four, don't be rude. Some people apparently view it as 
unmanly or uncool to be polite. Too bad. Customers, coworkers, 
fellow students, strangers all expect to be treated 
courteously, and rightly so.
    Five, don't break the law. If you want to participate in 
this republic, if you want a say in making the rules and 
electing those who make them, you have to follow the laws 
yourself. That means among other things that you can't use 
illegal drugs, which is just as well since there is no surer 
way to stay at the bottom of the heap or to find yourself there 
in a hurry.
    Six, don't have children out of wedlock. Moral issues 
aside, illegitimacy is a social disaster for women and children 
alike. Here again, it is a sure way to stay poor and raise poor 
children. I should note that the pathology of illegitimacy is 
more widespread among some native-born groups than among some 
immigrants.
    Seven, don't demand anything because of your race or 
ethnicity. You have the right not be discriminated against 
because of these factors, and it follows that you also cannot 
demand discrimination in your favor. The sooner you can stop 
thinking of yourself first as a member of a particular 
demographic subset, and instead as human being and an American, 
the better.
    Eight, working hard in school and on the job and saving 
money are not ``acting White.'' Bill Cosby is right; America 
owes her success to a strong work ethic and to parents 
instilling that ethic in their children. Here again, this is an 
area where some immigrant groups have much to teach some 
nonimmigrant groups.
    Nine, don't hold historical grudges. There is not a single 
group in the United States that has not been discriminated 
against at one time or another. But we are all in the same boat 
now, and we all have to live and work together. Your great, 
great grandfather may have tried to kill or enslave mine, but 
we are a forward-looking country and so we cannot afford to 
dwell in the past.
    Finally, number ten, be proud of being an American. You can 
hardly expect to be liked and accepted by other Americans if 
you don't love America. This is not a perfect country and it 
does not have a perfect history--and there are lots of other 
countries that have good qualities--but there is no country 
better than the United States. If you disagree, then why are 
you here? Be a patriot.
    Now obviously not all of these 10 items are suitable for 
Federal legislation, but in my written statement I have 
mentioned a number of things that Congress should and shouldn't 
do to encourage rather than discourage successful assimilation.
    In conclusion, let me just emphasize some of the most 
important, which should be included in the immigration 
legislation you are now debating.
    First, you should declare English to be the official 
language of the United States. Make clear that Federal law does 
not require foreign languages to be used, and create incentives 
for the provision of English instruction.
    Second, you should make clear that no immigrant ought to be 
discriminated against or given a preference on account of his 
or her race, color, or national origin.
    Third, greater civic literacy should be encouraged both in 
the naturalization process and, again, in instruction provided 
by public and private entities besides the Federal Government.
    Thank you very much, Madam Chairwoman, for inviting me to 
testify today. I look forward to trying to answer any further 
questions you have.
    [The prepared statement of Mr. Clegg follows:]
                   Prepared Statement of Roger Clegg
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you. Mr. Schultz, you are now recognized 
for 5 minutes.

              TESTIMONY OF TIM SCHULTZ, DIRECTOR, 
               GOVERNMENT RELATIONS, U.S. ENGLISH

    Mr. Schultz. Thank you, Madam Chairwoman, for the 
opportunity to testify regarding the issues of language and 
assimilation. U.S. English is a grassroots organization based 
in Washington, DC and we were founded by Senator S.I. Hayakawa, 
a former Senator from California, in 1983 and he himself was an 
immigrant. Our organization focuses on public policy issues 
related to language and national identity, particularly English 
as the official language laws.
    I thank the Committee for its wisdom in exploring the topic 
of assimilation. Regardless of where you come down, I think it 
is fair to say that there has been a lot of discussion in this 
town about the contours of immigration policy and much less 
thought going into what I call immigrant policy. That is what 
is our policy toward immigrants once they actually arrive here.
    Your former colleague, the late Barbara Jordan, wrote a 
1997 New York Times Op. Ed advocating what she called the 
Americanization ideal. Of course Barbara Jordan was a well 
known Democratic legislator.
    I suggest two facts should guide our thinking about the 
Americanization ideal. First, English language learning is a 
crucial element of Americanization, and second, we face a 
language challenge in the United States that won't solve 
itself. Since 1906, some capacity in English has been a formal 
legal requirement for naturalization but as Professor Renshon 
already mentioned, before the swearing in ceremony there is a 
process by which an immigrant comes to self-identify as an 
American.
    Two years ago, the Pew Hispanic Center conducted a study 
about civic attitudes of Hispanics in America, which 
demonstrates a very tight link between English and 
Americanization. Professor Renshon has already mentioned some 
of these numbers about national identity, but I think it is 
even more interesting to note that Pew found among Hispanics 
living in households where little or no English is spoken, only 
3 percent self-identify as Americans. 68 percent self-identify 
first or only with their native country. But conversely, among 
Hispanics in English-dominant households, 51 percent self-
identify first or only as Americans. In other words, those who 
speak English are 17 times more likely to self-identify as 
Americans than those who don't.
    Now I have no reason to believe that this would be 
different for any other group of immigrants. I think it has to 
do with a fairly universal process of becoming an American. For 
an immigrant who does not speak English, civic engagement with 
a vast majority of one's fellow Americans is simply impossible. 
Our common civic culture presupposes a common language, which 
is why Alexis de Toqueville observed that the tie of language 
is perhaps the strongest and most durable that can unite 
mankind.
    Now let me suggest that in the United States that tie which 
we have historically had is facing some unprecedented 
challenges. Three years ago a Pulitzer prize winning Los 
Angeles Times reporter named Hector Tobar did a 2-year 
Toquevillian experiment crisscrossing the country reporting on 
the civic morass of Latino immigrants. His book is called 
Translation Nation.
    And he argued that in today's United States, living an 
English-optional existence is increasingly common and 
increasingly accepted. Now Tobar's subtitle is, quote, Defining 
a New American Identity in the Spanish-Speaking United States. 
He generally thinks that an English optional United States is a 
welcome development. Now I disagree with that. But his 
diagnosis of the social trend deserves great weight.
    We also have some hard numbers to back up Tobar's 
anecdotes. The 2000 census found that there are over 2 million 
people born in the United States, citizens of the United 
States, who can't speak English well enough to hold a basic 
conversation. The Pew Hispanic Center did a separate survey of 
Mexican migrants in 2005 and found that among those residing in 
the United States for 6 to 10 years, 45 percent still did not 
speak English.
    They also found that for those residing in the United 
States for 15 or more years, that same number, 45 percent still 
did not speak English. Now the lesson I think is clear, that if 
immigrants are not on the road to learning English relatively 
quickly upon arrival, probably limited English proficiency is 
going to be terminal. Because the grandchildren of immigrants 
would usually learn English by growing up in America, I don't 
believe the English language itself is under any, quote, 
unquote, threat, but our national aspiration that has 
historically been that all immigrants will seek to become 
Americans, if half of immigrants or even 10 percent are locked 
out of that process, we would be removing part of the 
foundation that has allowed our Nation of immigrants to be 
successful.
    Public policy has a role to play in closing the English 
acquisition gap. It includes increasing opportunities to learn 
English and the avoidance of policies that promote an English 
optional existence and the insistence that, as Congresswoman 
Jordan wrote, the immigrant has mutual obligations to the 
United States.
    I would like to close just by repeating Congresswoman 
Jordan's words in that New York Times Op. Ed. She said that 
Americanization has ``earned a bad reputation in the 1920's 
when it was temporarily stolen by racists and xenophobes.'' But 
she said, ``It is our word, and we are taking it back.'' If we 
are to reclaim Americanization in policy as well as in spirit, 
a hard but cool headed look at our policies surrounding English 
and assimilation is long overdue.
    [The prepared statement of Mr. Schultz follows:]
                   Prepared Statement of Tim Schultz
    Thank you, Mr. Chairman, for the opportunity to testify regarding 
the issues of language and assimilation.
    My name is Tim Schultz, and I am Director of Government Relations 
for U.S. English, Inc., a grassroots organization based in Washington, 
DC. U.S. English was founded in 1983 by Senator S.I. Hayakawa, who was 
himself an immigrant. Our organization focuses on public policy issues 
that involve language and national identity, particularly official 
English laws.
    I thank the committee for its wisdom in exploring the topic of 
assimilation. Regardless of where you come down on the various 
immigration proposals before Congress, I think it's fair to say that a 
number of people are doing a great amount of thinking about the 
contours of immigration policy. Much less thought is going into what 
I'd call ``immigrant policy'': that is, what is our policy toward 
immigrants once they arrive? Your former colleague, the late Barbara 
Jordan, wrote a 1997 New York Times Op-Ed calling it ``The 
Americanization Ideal.''
    I suggest two facts should guide our thinking here: First, English 
language learning is the crucial element of Americanization. Second, we 
face a language challenge in the United States that won't solve itself.
    Since 1906, the demonstrable capacity to speak English has been a 
formal legal requirement for naturalization. We know that. But before 
the swearing in ceremony, there's a process by which an immigrant comes 
to self identify as an American. Two years ago, the Pew Hispanic Center 
did a remarkably detailed study about civic attitudes of Hispanics in 
America, which contains perhaps the best data to date on the link 
between English and Americanization.
    Pew found that among Hispanics living in what they called ``Spanish 
dominant Households''--where little to no English is spoken--only 3 
percent self-identify as ``Americans.'' 68 percent self-identify first 
or only with their native country. Among Hispanics in English-dominant 
households, 51 percent self identify first or only as Americans. In 
other words, those who speak English are 17 times more likely to self 
identify as Americans than those who don't. Those who don't speak 
English are 22 times more likely to identify primarily with their home 
country than with the United States. I have no reason to believe this 
would be different with any other group of immigrants, by the way. I 
think it has to do with a fairly universal process of becoming an 
American.
    It has been said that the First Amendment is ``First'' in the Bill 
of Rights because the freedom to speak is the right that enables all of 
the others. All of our rights as Americans flow from this first 
freedom. But for an immigrant who does not speak English, civic 
engagement with one's fellow Americans is impossible. Our common civic 
culture presupposes a common language. Alexis de Tocqueville, the 
preeminent observer of American civic culture, wrote ``The tie of 
language is perhaps the strongest and most durable that can unite 
mankind.''
    Well now, let me suggest that in the United States, that tie is 
facing some challenges.
    Three years ago, a Pulitzer Prize winning Los Angeles Times 
reporter named Hector Tobar did a 2 year long Toquevillian-experiment, 
crisscrossing the country reporting on the civic mores of Latino 
immigrants in the United States. Tobar's resulting book, ``Translation 
Nation'' argued that in today's United States, living an English-
optional existence is increasingly common and increasingly accepted. 
Now, Tobar's subtitle is ``Defining a New American Identity in the 
Spanish Speaking United States.'' He generally thinks that an English 
optional United States is acceptable. I disagree. But his diagnosis of 
the social trend deserves great weight.
    We also have some hard numbers to back up Tobar's anecdotes.
    The 2000 Census found that there are over 2 million people born in 
the United States--citizens of the United States--who can't speak 
English well enough to hold a basic conversation.
    The Pew Hispanic Center did a separate survey of Mexican migrants 
in 2006, and found that among those residing in the United States for 
6-10 years, 45 percent still did not speak English. Pew also found that 
among those residing in the U.S. for 15 or more years, an identical 45 
percent still do not speak English. In other words, if an immigrant 
does not start on the path to English upon arrival, chances are high 
that that person will never learn it.
    And let me repeat: I use Latino immigrants as an example because 
they are the most numerous and we have the largest and best data. 
Remember too, a majority of Latino immigrants DO learn English, so the 
suggestion that they can't or shouldn't is ridiculous.
    Because the grandchildren of immigrants will usually learn English 
by growing up in America, I don't believe that the English language is 
under ``threat.'' But our national aspiration has historically been 
that immigrants--yes, first generation immigrants--seek to become 
Americans. If half of immigrants--or even ten percent--are locked out 
of that process, we would be removing part of the foundation that has 
allowed our nation of immigrants to be successful.
    I'm not here today testifying about particular legislation, but we 
should agree that public policy has a role to play in closing the 
English acquisition gap. It includes increasing opportunity--more desks 
for more people who want to learn English. But it also includes the 
avoidance of policies that promote an English optional existence, and 
the hard headed insistence that, as Congresswoman Jordan wrote, the 
immigrant has mutual obligations.
    In Jordan's words, the term ``[Americanization] earned a bad 
reputation when it was stolen by racists and xenophobes in the 1920's. 
But it is our word, and we are taking it back.'' If we are to reclaim 
Americanization in policy as well as in spirit, a hard but cool-headed 
look at our policies surrounding English and assimilation is long 
overdue.

    Ms. Lofgren. Thank you, Mr. Schultz. Mr. Seavey, you are 
recognized for 5 minutes.

TESTIMONY OF MARK SEAVEY, DIRECTOR OF THE NATIONAL LEGISLATIVE 
                COMMISSION, THE AMERICAN LEGION

    Mr. Seavey. Thank you, ma'am. Madam Chairwoman, Mr. King, 
on behalf of the nearly 3 million members of the American 
Legion, I would like to thank you for the opportunity to 
testify today on this vitally important issue. The Preamble to 
the Constitution of the American Legion states that we 
associate ourselves together for the following purposes, to 
uphold and defend the Constitution of the United States, to 
maintain law and order, and to foster and perpetuate a 100 
percent Americanism.
    These words are recited in unison at American Legion 
meetings and represent a continuing contract of service to 
benefit America, and it is this commitment by legionnaires that 
is the fuel for action on immigration, both legal and illegal. 
The American Legion has been a leader in mentoring candidates 
for U.S. citizenship dating back to the beginning of our 
organization. Working closely with the U.S. Federal courts, the 
American Legion has conducted naturalization services 
throughout the country, teaching immigrants how to become 
proficient in the English language and about lessons in U.S. 
history and about government.
    The American Legion helped the new citizens become 
contributing members of our society. But the security, economy, 
and social fabric of the United States of America is seriously 
threatened by individuals who come to this country with no 
interest in assimilating into our culture and, in failing to do 
so, divide America into ethnic, racial, or cultural enclaves. 
The American Legion has long opposed any great influx of 
immigrants but instead has encouraged a path of moderation, 
embracing a concept that immigration should be regulated so 
that immigrants could be readily absorbed into the general 
population.
    Assimilation was important to both the government and the 
American Legion in the '20's and '30's, but it lost some of its 
luster in recent years as America directed its attention to the 
illegal migrant population and homeland security issues.
    But assimilation into our society by new citizens remains 
important to the welfare of the United States. The failure of 
this country to absorb new immigrants into its society divides 
the Nation and promotes racial and cultural biases. Immigration 
into the United States should be based on a two-way contract, 
that being a commitment by the United States to treat the new 
immigrants with respect and provide them with the rights and 
privileges guaranteed to all citizens by the rule of law; 
nothing more, nothing less. The immigrants must also pledge 
their loyalty and allegiance to the United States, and that 
allegiance must take precedence over and above any ties that 
they may have to their native country.
    Candidates for citizenship express that allegiance in a 
naturalization ceremony when they are asked to take an oath, an 
oath of renunciation and allegiance. This oath has various 
elements that are important to the American Legion, and we have 
solidified our beliefs on these in Resolution 356, which I have 
put into my testimony. But essentially those elements are 
renunciation of all allegiances to foreign states or 
sovereignties; support foreign defense of the United States 
Constitution; to bear truth, faith, and and allegiance to the 
U.S., to bear arms, perform noncombat service or perform work 
of national importance; and they take that oath without mental 
reservation or purpose of evasion.
    The American Legion believes strongly in maintaining the 
sanctity of this oath and supports language in the oath that is 
prescribed by the Congress of the United States for purposes as 
outlined in the Immigration and Nationality Act. The Legion 
also calls upon Congress to reject dual allegiance in principle 
and restrict and narrow its application in process.
    The American Legion is not opposed to legal immigration. 
There are, however, provisos to that statement. As a 
resolution-based organization, the American Legion has voiced 
its position on patriotic assimilation of new Americans in many 
of our resolutions. For instance, the American Legion has 
voiced longstanding opposition to any great influx of legal 
immigrants and has called for immigration quotas which should 
be set on a moderate and regulated scale in numbers that enable 
them to be readily absorbed into the culture and life stream of 
the United States.
    We have also worked with the Hudson Institute to make the 
intellectual and moral case for a substantially strong and 
ceremonially rich citizen naturalization process. The 
partnership jointly supports the position that candidates for 
U.S. citizenship possess a level of proficiency with the 
English language and an understanding of our country's history 
and its government. The American Legion believes that this 
naturalization ceremony should be made mandatory and conducted 
in a U.S. district court and, as everyone else here, we also 
support English as the official language of the United States.
    Everyone else has ended with a quote, and I would be remiss 
if I didn't also do that, but mine is from nearly a hundred 
years ago. In 1907, President Theodore Roosevelt said, ``In the 
first place, we should insist that if the immigrant who comes 
here in good faith becomes an American and assimilates himself 
to us, he shall be treated on an exact equality with everyone 
else, for it is an outrage to discriminate against any such man 
because of creed, of birth place or origin. But this is 
predicated upon the person becoming in every facet an American, 
and nothing but an American. There can be no divided allegiance 
here. Any man who says he is an American, but something else 
also, isn't an American at all. We have room but for one flag, 
the American flag. We have room but for but one language here, 
and that is the English language, and we have room but for one 
sole loyalty, and that is a loyalty to the American public.''
    One hundred years ago, and the words of Teddy Roosevelt are 
still appropriate today, and at the American Legion we urge 
that no one in Congress forget them.
    [The prepared statement of Mr. Seavey follows:]
                   Prepared Statement of Mark Seavey
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you, Mr. Seavey. We thank all the 
witnesses for their testimony. I would turn now to the Ranking 
Member, Mr. King, for his 5 minutes of questioning.
    Mr. King. Thank you, Madam Chair. I ask that Mr. Goodlatte 
be recognized in my stead in deference to his schedule.
    Ms. Lofgren. Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Madam Chairman, and I thank the 
Ranking Member for his courtesy.
    We at the last hearing had considerable testimony about the 
issue of assimilation and I raised the question, and I think 
the Ranking Member as well, with regard to dual citizenship. I 
would like to ask each of you to comment on that, too. I am 
disturbed by the Supreme Court decision that we are confronted 
with, which is now 40 years old but which has I think caused a 
growth in the number of people who have essentially retained 
dual citizenship, even upon becoming a citizen of the United 
States.
    So my question is two-fold. First of all, do you believe 
that dual citizenship further complicates the further process 
of assimilation among immigrants to the United States and, 
secondly, if you agree with that, what can and should the 
Congress do today to ensure that those who seek to become U.S. 
citizens do not retain allegiances to other nations in light of 
that Supreme Court decision? I will start with you, Mr. 
Renshon.
    Mr. Renshon. Thank you. As it happens, I wrote a book on 
that very subject called The Fifty Percent American, and as a 
psychoanalyst as well as a political scientist, I think you 
have to distinguish between the emotional level and the 
practical level.
    Frankly speaking, people have lots of different attachments 
and that is really a matter of human nature, and I don't think 
we can legislate it one way or the other.
    Mr. Goodlatte. It does bother me that some people may have 
the ability to vote, run for office and so on in another 
country at the same time that they are exercising those same 
rights here.
    Mr. Renshon. That bothers me as well, and I think it should 
be specifically outlawed. The reason for that is what you want 
to do in the United States is to tilt people toward an American 
identity, and the way that you do that is by casting their 
circumstance as such that they don't keep looking back over 
their shoulder at the country they used to belong to.
    One way in which that is done is by paying attention to the 
politics back there, to voting back there, to perhaps having 
people visit and take money back to their home countries and so 
forth. As far as I understand it, it should be a relatively 
simple matter for Congress to declare its views that people 
should not be allowed to vote in a foreign election, they 
should not be allowed to serve in an army in a foreign country, 
they should not be allowed to either run for office abroad or 
advise foreign governments abroad in a particular way.
    There is another element of this as well which I take up in 
my book, which is you have now a number of Americans who could 
or maybe do hold dual citizenship who are in our governmental 
organizations. They may be members of State legislatures, they 
may be members of the judiciary, they may be----
    Mr. Goodlatte. Do you think we could restrict that?
    Mr. Renshon. I think we should have a norm in which it 
becomes very clear that people who are in positions of 
leadership or authority should not be carrying passports or 
otherwise being associated with countries elsewhere.
    Mr. Goodlatte. I appreciate your answer. Let me allow the 
others to answer as well.
    Mr. Schultz. Congressman, my answer is I think that the 
fact that dual citizenship is more of a reality for the last 40 
years, regardless of the wisdom of that Supreme Court decision, 
shows that there is potential complication in people 
transferring their allegiance to the United States. We don't 
want citizenship to be just merely a transaction like getting a 
driver's license. It is not something like you get like a visa 
card or something like that, it is also part of an emotional, 
as the professor noted, an emotional transference of your 
identity to the United States when you become a naturalized 
citizen here, and the ability for people to do that 50 percent 
or even 33 percent I think complicates that.
    I think we have to kind of recognize that is, as a Supreme 
Court decision, not something Congress can overrule but points 
us to the fact that we are in a different era now and we face 
different challenges in Americanization than we faced at the 
beginning of the century. I think people who think 
Americanization is just going to happen automatically with no 
problems, I think they are failing to recognize there are a 
substantial number of factors, including that one, that 
complicate the Americanization process and make it less 
automatic than maybe would have happened at the beginning of 
the century.
    Mr. Goodlatte. Mr. Seavey.
    Mr. Seavey. I am not sure I have a great deal to add more 
than they have already, but the American Legion has passed a 
resolution specifically on this topic and we would like to see 
a little more teeth given to the oath of renunciation. If you 
give an oath, there should be something that actually holds you 
to it. As far as we are concerned, that is something that you 
all could give some teeth to, the exact form of that.
    But the oath of renunciation, specifically I think that 
perhaps when they give the oath of renunciation, if it really 
doesn't have any bearing, there is probably no point to it in 
the first place if you can't hold someone to it. I think there 
is probably some constitutional route that you can take to give 
it some teeth without violating the Supreme Court decision.
    Mr. Goodlatte. I agree. I like some of the ideas expressed 
by Mr. Renshon as well. Thank you, Madam Chairman.
    Ms. Lofgren. The gentleman from Texas, Mr. Gohmert, is 
recognized for 5 minutes.
    Mr. Gohmert. We do appreciate your patience with us. I 
appreciate your being here and your thoughtfulness in your 
comments and the research that you obviously have all done. I 
would like to follow up on the topic that you were just 
discussing, the consequences of voting, running for office in 
another country, or voting in another country; that is, getting 
a passport in another country. There are apparently a litany of 
things that can be listed as truly requiring dual masters, and 
I do believe the teaching that persons cannot serve two 
masters; one is going to end up getting shorter devotion.
    But as I understand it, the 1967 Supreme Court case 
basically said you cannot involuntarily terminate American 
citizenship and if that is the case, it does seem as though 
there may be room for legislation that would do as has been 
suggested, putting teeth in that. Perhaps requiring an oath 
both orally, in writing, with whatever translation is needed to 
make sure they understand even though they speak some English, 
make sure they understand exactly what is being signed, that 
indicates that if they do one of these itemized things, commit 
one of these acts, then they are voluntarily relinquishing 
their American citizenship. It does seem quite offensive that 
someone could hold office in a foreign country, that the office 
which they ran, convincing voters there that they had those 
voters' interests at heart, yet still hold American 
citizenship. Clearly you can't love and serve honorably both of 
them. So that would be in the legal community what we would 
call a conflict of interest, clearly.
    So I would like to get your comments on what might be done 
to provide the teeth that we were talking about and what your 
thoughts are about possibly having that as part of the 
naturalization oath.
    Start with you, Mr. Renshon.
    Mr. Renshon. I probably will stand a step apart from your 
perspective. I think the whole idea of taking away citizenship 
because people have attachments is likely to run into a buzz 
saw and wind up in the courts, and I have no idea how the 
courts would rule on that.
    Mr. Gohmert. But to elaborate, even if they commit an act 
such as getting a passport in a foreign country or running for 
office in a foreign country?
    Mr. Renshon. I find those things very unsettling and almost 
as an American reprehensible in some respects. I think the way 
to approach it is to establish a norm very early on with regard 
to the expectations there. For example, when people apply for a 
green card or apply to come to the United States, I might have 
them sign something at the time which acknowledges that they 
will, if they are permitted to come here, do none of the 
following things, or affirmatively do certain things.
    I would reinforce that along the way, maybe have it yet 
again at the naturalization process. I would have people hand 
in their passports when they get American citizenship. It would 
be in my view just that simple. I think that that is a real 
issue, the issue that you raise, but I think if we approach it 
in an overall way to try to ask ourselves at each step of the 
immigration process, from the time that people want to come 
here to the time that their children are here what can we do 
step by step along the way to help cement attachment to the 
American system, I think that overall process if you look at it 
that way might be a better way to go.
    Mr. Gohmert. If I can get quick responses from everybody 
else.
    Mr. Clegg. Well, I agree that it is a problem. I agree that 
it is not only a problem in itself, but also that it is 
evidence of a symptom as well that needs to be treated--that 
the underlying cause, the reasons why people would want to 
maintain dual citizenship, is a problem. I don't understand, I 
am not as familiar with, the Supreme Court decision, but as you 
describe it, all the Supreme Court was doing was to put a limit 
on one kind of penalty that you all can place on individuals 
who maintain dual citizenship or do other things that are 
perceived as being disloyal, and while you can't strip people 
of citizenship, there are other things, other kinds of 
punishment that you could propose.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Clegg. Finally, the last thing is to put pressure on 
the foreign countries that are allowing dual citizenship.
    Ms. Lofgren. Does the gentlelady from Texas wish to be 
recognized?
    Ms. Jackson Lee. Just briefly, Madam Chair. I won't ask any 
questions. I do want to thank the gentlemen for their testimony 
and what I have seen of Mr. Renshon's testimony just requires a 
very abbreviated response. I come from Texas and we are very 
proud of what could be called a bifurcated history. We know 
that we have a large population of first, second, and third 
generation Mexican Americans, people who have a strong heritage 
as relates to Mexico because of the geographics of that area.
    I raise some concern about your reference to a Pew study 
that indicates in Texas, we refer to them as Hispanics, 88 
percent of Hispanics identify themselves as Hispanics. I would 
venture to say 100 percent of African Americans identify 
themselves as African American or Black, but they also 
recognize that they are American.
    So I know this is about Americanization. I think all of us 
are committed to making sure that our allegiance is to one 
flag, our pride is in America and what she represents and that 
is unity and certainly a belief in her values. But this 
testimony strikes me as very much uninformed about people's 
identity, and I would hope that you would do some further study 
so that you could understand fully when people express the fact 
that they are Hispanic, that it doesn't mean they deny a love 
for the country in which they are in. Many of us are hyphenated 
Americans but we are Americans and we believe in what America 
represents, Italian Americans, Irish Americans. And I think 
that you will find that the next generations of individuals 
have all of the attachment to America, all of the culture of 
America, all of the language of America. Maybe you will support 
English as a second language, more of those classes, because 
there is standing room only to be had in those classes.
    In any event, Madam Chair, I just want to speak for those 
who did not speak for themselves. I haven't met a group of 
immigrants who are not excited about the opportunity to be here 
and excited about being an American. The more we work together, 
I think the more we will achieve what the gentlemen are 
testifying to. But I really don't see that as a rising problem. 
I frankly think it is a tribute to America as a democracy and 
the freedom that it exudes that we can express ourselves, yet 
express our commitment to this country.
    With that, I yield back.
    Ms. Lofgren. The gentlelady yields back.
    Mr. Renshon. May I respond to that, please?
    Ms. Lofgren. The gentlelady yields back, and I recognize 
Mr. King. He may want to recognize you further.
    Mr. King. Thank you, Madam Chair. Maybe we can return back 
to Mr. Renshon toward the end. I have something I would like to 
address to Mr. Seavey and the American Legion testimony that 
you have.
    It occurs to me that down in the Mississippi River bottom, 
at Keokuk, IA, there is a big stone there, a boulder about the 
size of a Volkswagon, and that is the site of a Federal 
hospital that was formed during the Civil War so that the 
wounded soldiers could be brought up aboard riverboats there on 
the Mississippi River and could be brought into that Federal 
hospital.
    There is also a Federal cemetery there where the graves of 
hundreds, and perhaps thousands, of brave Americans who gave 
their lives to free the slaves are buried. There at the 
Mississippi River bottom--and I regret the gentlelady from 
Texas has left and is not able to hear this--on a brass plate 
on that boulder is ``DAR,'' Daughters of the American Republic, 
``one country, one flag, one language.'' that was the clarion 
call then, during and post the Civil War, and that sTems to be 
somewhat the message that you have delivered here today in your 
testimony.
    I will just ask if you would care to reflect upon that and 
the meaning of that in the American Legion principles.
    Mr. Seavey. I think it is obvious. If you look at the 
demographics of voters and things of that nature, the 
demographic that votes the most are veterans. I think, if you 
look at any sort of civic thing that goes on, it is veterans. 
And I know that--I just got out of the Army about a year ago, 
and I cannot even tell you how many times we all told each 
other there are no Hispanic American soldiers or African 
American soldiers or anything else. We are all green, I think. 
For us in the military, there is no segregating in the 
military.
    We had 10 guys living in a hut that was about 10 feet by 
about 40 feet, and so you are forced to assimilate; and 
culturally speaking, I think that even within the squads that 
we had, you take on a sort of culture that is an amalgam of 
everyone in it.
    I think that, as a whole, veterans view citizenship 
differently because they have actually been on the front lines, 
and they see these things.
    From my own personal feeling, I was an election monitor in 
Afghanistan, and I saw the trouble that the people went through 
over there to vote, and I saw the ethnic difficulties and the 
religious difficulties. So any time that we, as veterans, can 
help someone come and enjoy all of the benefits that America 
has to offer, we certainly leap at it.
    So I certainly concur with that. I think that there is 
nothing to be gained from having separate little enclaves, or I 
think that, you know, the melting pot perhaps has gotten off 
track here, but certainly the American Legion feels that we can 
right the ship if we slow down the----
    Mr. King. There is no necessity for enclaves in the 
barracks. There is no necessity for enclaves in America.
    Mr. Seavey. Exactly.
    Mr. King. I thank Mr. Seavey.
    I will turn now to Mr. Renshon, and I appreciate your 
presentation, and I appreciate everyone's testimony.
    I reflect back in last week's testimony, where there was a 
witness who testified that intermarriage between ethnicities or 
races has been in a significant decline over the last several 
decades, three or four decades. And I do not know what those 
numbers are, but I can tell you what they are with 
naturalization statistics as produced by USCIS, Citizenship 
Immigration Services.
    That is, in 1970, the naturalization rate was 84 percent, 
and it dramatically dropped off at each census from 1970 to 
1980 to 1990 to the year 2000, where that 84 percent 
naturalization rate had slid out at the year 2000 at 13 
percent. Now, I will submit that intermarriage rates and 
naturalization rates are two empirical indicators of 
assimilation or Americanization integration if we want to use 
that rather inaccurate term, I believe.
    Do you know of any empirical measures of assimilation, or 
would you just simply care to comment upon those statistics 
that I have delivered to you?
    Mr. Renshon. Well, the first I am not familiar with. I was 
under the impression that intermarriage rates were rising.
    Mr. King. It was a surprise to me, too.
    Mr. Renshon. Yes. So I would be interested to see that and 
to take a look at it.
    The second is really discouraging and dismal because 
naturalization is a very important part of the Americanization 
process, and when people do not take advantage of the 
opportunity to become citizens, that is saying something about 
us. And it is also saying something about them and a 
relationship that I find very disturbing.
    Mr. King. Would you concur that those two are the two 
empirical indicators we have and are both going wrong; and if 
they are both going the wrong direction, we do not have any 
kind of sign that it is going the opposite way?
    I would ask Mr. Seavey also to answer if I have got time.
    Mr. Renshon. Well, you know, people use education and 
people use home ownership as indicators, and as I said in my 
comments, they are suspect indicators. Language is another.
    Mr. King. Could I just get a brief answer? Again, I know 
you spoke about assimilation. I would appreciate it if you 
could answer in a few seconds.
    Mr. Seavey. Sure.
    The one caveat that I would raise, Representative King, is 
that I think that among Hispanics, in particular, there is 
actually good evidence that second and third generation 
Hispanics are doing a very good job of assimilating.
    That is not to say that, you know, there is not room for 
improvement, but that is the one caveat that I would raise in 
this area.
    Ms. Lofgren. The gentleman's time has expired.
    I would like to thank the witnesses for their testimony 
today. I have not made an opening statement, but I would just 
observe that there is actually not as big an argument as some 
would think on some of these questions.
    Listening to you, I am reminded of meeting with a group of 
Vietnamese, who were in the Vietnamese army, who fled the 
Communist government, who came to San Jose in the 1970's. I was 
with the Red Cross, volunteering to help get them settled.
    I remember I had been teaching immigration law, and I 
remember telling these really very brave men that their 
children would not be Vietnamese in America. In America, they 
would be Vietnamese Americans, but their grandchildren would be 
Americans of Vietnamese descent. They scoffed at that, but it 
has turned out to be true.
    We have a rapid Americanization in our country. It is one 
of our great strengths.
    I appreciate your testimony today. Without objection, 
Members will have 5 legislative days to submit any additional 
written questions for you, which we will forward and ask that 
you answer as promptly as you can. Without objection, the 
record will remain open for 5 legislative days for the 
submission of other additional materials.
    Because we are operating under the 5-minute rule and all 
time has expired, we must now adjourn our hearing.
    Thank you.
    [Whereupon, at 7:40 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    Pursuant to House Rule XI clause 2(j)(1), the minority in the 
Subcommittee is entitled,

        [U]pon request to the chairman by a majority of them before the 
        completion of the hearing, to call witnesses selected by the 
        minority to testify with respect to that measure or matter 
        during at least one day of hearing thereon.

    Last week, the Subcommittee held a hearing on ``Comprehensive 
Immigration Reform: Becoming Americans--U.S. Immigrant Integration.'' 
At the request of the Ranking Member and a majority of the minority on 
this Subcommittee, today the Immigration Subcommittee is holding a 
minority hearing to continue the discussion on the effects of 
immigrants on the nation's economy.
    As we learned last week, Southern and Eastern Europeans who 
immigrated to the United States a century ago and who are now held up 
as model immigrants, were once depicted much as immigrants of today--as 
being unable and unwilling to assimilate.
    Our witnesses last week explained that these European immigrants 
did well in joining American society. Professor Gerstle explained that 
these ``new immigrants'' successfully integrated into the United States 
despite such hostility because of three factors: 1) the ability of 
immigrants to participate in American Democracy, 2) natural transition 
from immigrants to their children; and 3) the ability of immigrants to 
achieve economic security. He noted that ``[t]he ability of immigrants 
to participate in politics and to feel as though their votes made a 
difference was crucial to their engagement with and integration into 
America.'' He also noted that ``[a]n immigrant population that finds 
itself unable to move out of poverty or to gain the confidence that it 
can provide a decent life for their children is far more likely to 
descend into alienation than to embrace America.''
    What we have learned from this historical account is that including 
immigrants in mainstream American society and the economy is the 
quickest way to assimilation and integration.
    Assimilation should be a goal of any rational immigration policy. 
And we must ensure that comprehensive immigration reform reflects that 
objective.
    Purely temporary worker programs with little opportunity for those 
who contribute to our economy to become full members of the country 
that they've helped to build run contrary to the goal of assimilation, 
because such programs relegate people to a life in a permanent 
underclass. Furthermore, under purely temporary worker programs, there 
is little incentive and little time to learn English if, after two or 
three years of full-time work in the U.S., the only choice is returning 
home to a non-English-speaking country.
    As we develop comprehensive immigration reform with an eye toward 
assimilation, we must not forget that mandating and facilitating the 
process for immigrants to learn English is essential, but it is 
certainly not sufficient by itself to ensure assimilation. It is the 
opportunity to become fully participating members of our polity and our 
economy that is the key to successful immigrant assimilation, as 
Professor Gerstle so poignantly discussed last week.
    Now we turn our attention to the minority witnesses to provide 
their perspective.
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today we continue these series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. Last week 
we took a look at another controversial aspect of the immigration 
debate, family based immigration. Today we continue the vital task of 
eliminating the myths and seeking the truth. Today's hearing deals with 
probably the most crucial aspect underlying the immigration debate, an 
immigrant's ability to integrate, and assimilate into American society.
    Let me start by quoting my predecessor the late great Barbara 
Jordan: ``We are a nation of immigrants, dedicated to the rule of law. 
That is our history - and it is our challenge to ourselves. It is 
literally a matter of who we are as a nation and who we become as a 
people.''
    Allow me to talk about our nation's history. I find that quote 
particularly interesting in light of the recent celebration of the 400 
year anniversary of the settlement of Jamestown. Yes we are talking 
about a different time period, but imagine if that first group of 
individuals was met with the hostility and disregard for decency that 
today's immigrant population faces. Imagine if these folks were 
demonized, and disparaged by a wide network of Native Americans, in the 
same manner that we demonize the current documented and undocumented 
population.
    It was not to long ago that we held a field hearing underneath the 
shadow of the Statue of Liberty at Ellis Island. I remind my colleagues 
of the famous inscription on that monument of freedom, hope, and 
inspiration that many immigrants saw as they pulled into Ellis Island 
full of hopes and dreams, ``Give me your tired, your poor, your huddled 
masses yearning to breathe free, The wretched refuse of your teeming 
shore. Send these, the homeless, tempest-tossed to me, I lift my lamp 
beside the golden door.'' Now we want to close this door because of the 
lies and the hysteria created by a few in the Nativist and 
Restrictionist camps.
    There is an old saying, if you do not learn your history you are 
doomed to repeat it. There was a time when our nation had the same 
reservations about Italian and Irish immigrants that came to this 
country at the start of the 20th century. Fast forward to 2007 and one 
of the leading candidates for the Republican nomination for President, 
Rudy Guliani is the descendant of Italian immigrants, and Bill O'Reily 
an individual well respected by my colleagues on the other side of the 
aisle is the descendant of Irish immigrants, and no one would argue 
that they have had any problems assimilating into our society. In fact 
they represent the natural progression to full fledged Americans that 
occurs when the children of immigrants have kids and their kids have 
kids. I look down the aisle and I see Rep. Luis Gutierrez, Member of 
Congress and the child of immigrants. I look behind me and I have a 
staffer Ted Hutchinson, an attorney and the child of immigrants. 
Therefore it should be quite evident that immigrants have a long 
successful history of assimilation and achievement in this nation.
    Let me take a moment to describe how my immigration legislation, 
H.R. 750, the ``Save America Comprehensive Immigration Reform'' 
addresses this issue of integration and assimilation. Save mandates 
that immigrants earn their legalization by 1) successfully completing a 
course on reading, writing, and speaking ordinary English words, and 2) 
showing that he has accepted the values and cultural life of the United 
States. Save also requires the completion of 40 community service 
hours. For children Save requires that school age kids are successfully 
pursuing an education. These are the values that make are nation great 
education, community service, and the acceptance of our system of 
democracy. With these requirements we can all be ensured that those who 
seek a better opportunity here in the United States will embrace this 
country as their own.
    Likewise embracing the ideals and value systems of the United 
States is something that all immigrants have exemplified from Ellis 
Island to the sandy beaches of Key West, Florida. Are we no longer the 
melting pot? When the pilgrims came they did not leave their culture 
behind so you can not expect any group of immigrants, Latino, European, 
or African to leave their culture behind either. This mixture of 
cultures is what defines cities like New York, Los Angeles, Miami, and 
Chicago, and makes this nation wonderful. However no groups of 
immigrants come to this country as a collective whole with the purpose 
of disregarding the value system that they seek to be a part of. That 
does not make any sense, that is not true, and it is simply un-
American.

                                 <all>

</pre></body></html>
